Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 MEDICARE ADMINISTRATIVE
        APPEALS
           ALJ Hearing Process




                    JUNE GIBBS BROWN
                     Inspector General

                      SEPTEMBER 1999
                       OEI-04-97-00160
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                               HEADQUARTERS

Janet Miller, Project Leader                         Stuart Wright, Associate Director
Josiah Townsel, Team Leader                          Barbara Tedesco, Statistician
Dwayne Grant                                         Brian Ritchie, Program Analyst



To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7729. Reports
are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                            TABLE OF CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS

      Increasing Numbers and Changing Nature of ALJ Appeals . . . . . . . . . . . . . . . . . . . . . . . 8


          Structural Inconsistencies in the Appeals Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Non-Adversarial Nature of ALJ Hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Minimal Experience and Training of ALJs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX A: HCFA COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                          EXECUTIVE SUMMARY

PURPOSE
         To evaluate the administrative law judge appeals process for Medicare Part B and
         Medicare Part A fee-for-service claims.


BACKGROUND

         If an intermediary or a carrier denies payment for a claim, a provider or a beneficiary may
         appeal the denial. The appeal procedure for Part A and Part B claims is different.
         Regardless of the procedural route, however, providers and beneficiaries may appeal to
         HCFA contractors, Administrative Law Judges, and the Departmental Appeals Board of
         the Department of Health and Human Services.

         The first step in a beneficiary or provider appeal is a request for a reexamination of a
         denied claim. The request, called a reconsideration, is made to intermediaries for Medicare
         Part A claims. The request is made to carriers for Medicare Part B claims. For Part B
         claims, the request is called a review.

         If a Medicare intermediary upholds a denied Part A claim, the next step is to request a
         hearing with an Administrative Law Judge. If a Medicare carrier upholds a denied Part B
         claim, there is an additional level of appeal. This appeal is made to a carrier hearing officer.
         If the carrier's hearing officer upholds the denial, the appellant may then request a hearing
         with an Administrative Law Judge.

         If an Administrative Law Judge upholds a denied Part A or Part B claim, an appellant may
         request a review by the Departmental Appeals Board. The Departmental Appeals Board is
         the final level of administrative appeal.


FINDINGS

Increasing Number and Changing Nature of ALJ Appeals

         An increasing number of appeals are being heard by ALJs. In addition, a large percentage
         of these appeals are reversed and payments made to appellants. Further, although the
         appeals process was established as a non-adversarial system for beneficiaries, it is now a
         provider dominated process.




Medicare Administrative Appeals                     1                                       OEI-04-97-00160
Structural Inconsistencies in the Appeals Process

         A number of elements contribute to inconsistencies in the appeals process. The elements
         include; lack of consistent criteria for contractors and Administrative Law Judges, lack of
         communication by parties in the appeals system, and lack of precedence of Administrative
         Law Judge cases.

Non-Adversarial Nature of Administrative Law Judge Hearings

         Medicare is not a party to ALJ hearings. Therefore, the non-adversarial structure of the
         appeals process often requires that Administrative Law Judges serve as fact finders and
         neutral decision-makers. However, this practice may compromise the neutrality of
         Administrative Law Judges by forcing them to present Medicare’s case at hearings, then
         decide the case. Parties in the appeals process agree that non-adversarial hearings are a
         problem.

Minimal Experience and Training of Administrative Law Judges

         On average, Administrative Law Judges spend about 8 percent of their time adjudicating
         Medicare cases. Their focus is on adjudicating Social Security Administration disability
         cases. Further, Administrative Law Judges receive neither extensive formal nor informal
         training on Medicare.


RECOMMENDATIONS

         Correct structural problems:
               <     Separate the administrative appeals process for beneficiaries and providers.
               <     Establish adversarial ALJ hearings for provider appeals.
               <     Develop and require both Medicare contractors and ALJs to apply the same
                     standards.
               <     Develop regulations for conducting Medicare ALJ appeals.
               <     Establish a case precedent system for Departmental Appeals Board rulings.
               <     Develop thorough, parallel training programs for Medicare contractors and
                     ALJs.
               <     Create formal communication and information networks that span the entire
                     appeals environment.

         Establish a dedicated ALJ corps: We submit three organizational options for such a
         corps:
                1. Establish an ALJ corps in HHS for Medicare cases.
                2. Create a dedicated corps in SSA for Medicare cases.
                3. Expand the current Part B cadre of ALJs in SSA to handle all Medicare cases.

Medicare Administrative Appeals                    2                                     OEI-04-97-00160
                                  INTRODUCTION

PURPOSE

         To evaluate the administrative law judge appeals process for Medicare Part A and
         Medicare Part B fee-for-service claims.

BACKGROUND

         Medicare Part A benefits include home health care, inpatient hospital care, inpatient
         psychiatric care, skilled nursing care or rehabilitation associated with recuperation
         following hospitalization, and hospice care for the terminally ill. This inspection considered
         only the home health benefit under Part A. The Health Care Financing Administration
         (HCFA) contracts with five Regional Home Health Intermediaries to process and pay home
         health claims under Medicare Part A.

         Medicare Part B benefits include physician services, outpatient services, diagnostic
         laboratory tests, x-rays, ambulance services, and durable medical equipment. The HCFA
         contracts with 23 carriers to process and pay Medicare Part B claims.

         Medicare expenditures for FY 1997 were over $210 billion.

Appeals Process

         If an intermediary or a carrier denies payment for a claim, a provider or a beneficiary may
         appeal the denial. The appeal procedure differs for Part A and Part B claims. Regardless
         of procedure, however, the administrative appeals process has a specified order.
         Appellants must begin with the HCFA contractor before going to the Administrative Law
         Judge (ALJ). After the ALJ hearing, cases may be appealed to the Departmental Appeals
         Board of the U.S. Department of Health and Human Services.

         ALJs are employed by the Social Security Administration (SSA), but they adjudicate
         Medicare appeals under a contractual arrangement.

         The first step in a beneficiary or provider appeal is a request for a reexamination of a
         denied claim. The request, called a reconsideration, is made to intermediaries for Medicare
         Part A claims. The request is made to carriers for Medicare Part B claims. For Part B
         claims, the request is called a review. There is no minium dollar amount required to
         request a reconsideration or a review.

         If a Medicare intermediary upholds a denied Part A claim, the next step is to request a
         hearing with an ALJ. In other words, after the intermediary reconsideration, providers and

Medicare Administrative Appeals                    3                                      OEI-04-97-00160
         beneficiaries may appeal denied Medicare Part A claims directly to ALJ offices. The
         appeals are not reviewed by, or routed through, any other Federal organization or
         representative.

         If a Medicare carrier upholds a denied Part B claim, there is an additional level of appeal.
         This appeal, requiring $100 or more in controversy, is made to a carrier hearing officer. If
         the carrier hearing officer upholds the denial, the appellant may then request a hearing with
         an ALJ.

         To qualify for an ALJ hearing, the dollar amount in controversy must be $100 or more for
         Part A appeals and $500 or more for Part B appeals. Under certain conditions, the dollar
         amount of several claims may be aggregated to meet the threshold. A beneficiary may
         aggregate claims from two or more providers to meet the threshold. A provider may
         aggregate claims from different beneficiaries regardless of the service at issue.

         However, before most Medicare Part B appeals are reviewed by an ALJ, case files are sent
         to the Division of Medicare Part B within the SSA Office of Hearings and Appeals located
         in Falls Church, Virginia. Cases are assigned a docket number and reviewed for procedural
         issues at the Division of Medicare Part B. After docketing and review, the cases are sent
         to the an ALJ office for hearing. Large Part B cases remain at Falls Church for assignment
         to a cadre of ALJs who specialize in larger cases. Staff at the Division of Medicare Part B
         also provide training and serve as an information resource for ALJs.

         If an ALJ upholds a denied Part A or Part B claim, an appellant may request a review by
         Administrative Appeals Judges of the Departmental Appeals Board. The Departmental
         Appeals Board consists of a corps of judges and attorneys attached to the Office of the
         Secretary, Department of Health and Human Services.




Medicare Administrative Appeals                    4                                      OEI-04-97-00160
                        LEVELS OF MEDICARE ADMINISTRATIVE APPEAL


                     PART A                                                     PART B


             RECONSIDERATION                                                    REVIEW

                       (RHHI)                                                    (Carrier)



                                                                        CARRIER HEARING

                                                                                 (Carrier)



                                           ALJ
                                           ALJ                             DIVISION OF
                                         HEARING
                                         HEARING                         MEDICARE PART B

                                        (SSA                            (SSA Office of Hearings and
                                         (SSA Office
                                               Office of
                                                      of
                                          Hearings                               Appeals)
                                          Hearings and
                                                   and
                                           Appeals)
                                            Appeals)




                                      DEPARTMENTAL
                                      DEPARTMENTAL
                                      APPEALS
                                      APPEALS BOARD
                                              BOARD

                                            (DHHS)
                                             (DHHS)




         If the Departmental Appeals Board refuses to hear an appeal, or upholds a denial, the
         administrative appeal process is over. An appellant may, however, seek judicial review in
         Federal Court if the amount in controversy is above $1000.

Impact of Administrative Appeals

         The cost to HCFA for administrative appeals is sizable. First, HCFA incurs a considerable
         administrative cost through its contractors for processing appeals. To illustrate, the
         administrative cost incurred by HCFA for administrative appeals totaled over $4 million for
         Medicare Part A and about $75 million for Medicare Part B in FY 1996. The HCFA incurs
         this contractor administrative cost regardless of how appeals are ultimately decided.

         The HCFA also incurs a cost for use of ALJs employed by SSA. The SSA is reimbursed
         from the Medicare Trust Fund for ALJs who adjudicate appeals of Medicare payment
         decisions. This administrative cost totaled over $9 million for Medicare Part A and almost
         $15 million for Medicare Part B in FY 1996.



Medicare Administrative Appeals                       5                                      OEI-04-97-00160
         Cost is not the only issue or cause for concern over the Medicare appeals process. The
         high rate of reversal during the appeal process is a concern for HCFA and its contractors.
         According to HCFA representatives, the high rate of reversal may provide an incentive for
         uninformed or abusive providers to submit claims for services and items that are not
         covered.

         In addition, contractor staff are increasingly demoralized by a high incidence of ALJ
         reversals. Contractors report seeing providers who have been in the Medicare program for
         years use the administrative appeals process to "beat the system" and obtain payment for
         services and supplies which are not payable under contractor guidelines.

         The following table shows the volume of claims in the appeals process in FY 1996.

                                  Volume of Claims in Appeals Process
                                                FY 1996

                                               PART A        PART A             PART B
                                               Overall      Home Health
                                                            Claims Only
 # Claims Processed                           142,086,669      14,680,576      666,664,972
 # Claims Denied                               13,457,514         377,185        97,636,027
 # Reconsiderations Performed                     60,680           30,903                NA
 # Reviews Performed                                   NA              NA         3,638,363
 # Hearing Officer Hearings                            NA              NA            70,716
 # ALJ Hearings                                   12,155             4811            16,360



METHODOLOGY

         We used a standardized mail questionnaire and surveyed all five Regional Home Health
         Intermediaries that process Part A claims for home health services, all 23 carriers who
         process Part B claims, and a random cluster sample of ALJs.

         We also surveyed all 28 cadre judges. Cadre judges are a separate population of SSA
         ALJs. They spend a larger percentage of their time adjudicating Medicare appeals than the
         general population of ALJs. Furthermore, cadre judges adjudicate the most complex and
         highest dollar Part B appeals.

         From each of the sources, we obtained information on training and resources, conducting
         the appeals process, communication, and suggestions for improving the appeals process.

Medicare Administrative Appeals                    6                                    OEI-04-97-00160
         In sampling the ALJs, we used a one-stage cluster sample. First, we randomly selected 30
         hearing offices from the universe of 135 hearing offices across the U.S. that handle
         Medicare appeals. Second, we mailed surveys to all 284 ALJs assigned to the 30 sampled
         hearing offices. Of the 284 sampled ALJs, 123 responded to our survey -- a response rate
         of 43 percent.

         Because of this poor response rate and quality of the data, we didn’t project the ALJ
         survey to the general population or provide any estimates based upon that information. All
         information collected from that survey is presented as anecdotal comments.

         Additionally, we surveyed all 28 Medicare cadre judges. Of the 28 cadre judges, 24
         responded to our survey -- a response rate of 86 percent.

         We also interviewed HCFA headquarters and regional office representatives, HCFA
         Medicare contractors, Office of Hearings and Appeals and Departmental Appeals Board
         representatives, and the ALJ in charge of the SSA Division of Part B Medicare Appeals.

         We tabulated and summarized the information we collected from our contractor and ALJ
         surveys. We also compared the responses we received from each group we interviewed
         and surveyed.


         We did our study between January 1998 and January 1999. We conducted the inspection
         in accordance with Quality Standards for Inspections issued by the President’s Council on
         Integrity and Efficiency.




Medicare Administrative Appeals                   7                                    OEI-04-97-00160
                                           FINDINGS

Increasing number and changing nature of ALJ appeals
Appeals and reversal of claims decisions are increasing

         An increasing number of appeals are being heard by ALJs. This may be due to the high
         rates of contractor denials for payment which are reversed by ALJs. Providers may be
         motivated, in part, to appeal to the ALJ level, knowing their claim is likely to be paid.
         There has been no commensurate increase in appeals at lower levels.

         The following table demonstrates the sizable increase in the number of ALJ hearings
         between FY 1996 and FY 1998.

                     Number of ALJ Hearings for Medicare Part A and Part B

                  1996            1997    1998    increase 96-97   increase 97-98   increase 96-98
 Part A         12,155       15,725      16,755       29%              6.5%               38%
 Part B         16,360       28,256      32,498       73%              15%                99%
 Total          28,515       43,981      49,253       54%              12%                73%

         In addition, a large percentage of appeals reaching the ALJ level are reversed and payments
         made to appellants. To illustrate, in 1996, 81 percent of home health appeals were
         reversed at the ALJ level. In 1997, 78 percent of Durable Medical Equipment appeals
         were reversed at the ALJ level. Reversal rates of this magnitude could encourage
         appellants.

Providers are now the primary appellants

         The Medicare administrative appeals process was established for the beneficiary. Its
         structure is non-adversarial. This means that appellants may present their appeal at a
         hearing without presence or opposition of the adverse party. It allows beneficiaries to
         present relevant information in support of their appeal without fear of intimidation by the
         Government and its agents. Medicare is not even represented at ALJ hearings. Only a
         written record of the claim and prior levels of appeal are presented. Most respondents
         viewed non-representation by Medicare as an important protection for beneficiaries.

         However, the appeals process is no longer a process predominately for beneficiaries. It is
         now a provider process. The SSA Office of Hearings and Appeals and HCFA contractors


Medicare Administrative Appeals                       8                                   OEI-04-97-00160
         do not collect reliable statistics on what percentage of appeals are made by providers as
         opposed to beneficiaries. However, all the respondents to our questionnaires agreed that
         beneficiaries make up a very small percentage of appellants.

         Providers do bring beneficiaries to some ALJ hearings along with expert witnesses and
         attorneys. However, many ALJs and contractors do not consider the presence of
         beneficiaries to indicate a beneficiary appeal.

         With providers making up the preponderence of appellants, one noticable trend is a cause
         for concern. Some providers appeal aggressively, challenging a large percentage of denials.
         Contractors report providers do so because of success with prior appeals at the ALJ level.

         The noteworthly media attention concerning high ALJ reversal rates may encourage
         providers to appeal. In addition, there are many appeals consultants informing providers
         and their attorneys on the great liklihood of a favorable ALJ decision, and the best ways to
         present their case at hearings.

Structural inconsistencies in the appeals process
Contractors and ALJs use different criteria in making coverage determinations

         In many instances, Medicare contractors and ALJs use different criteria in ruling on
         Medicare payment and coverage issues. This, in part, accounts for the high level of
         reversed claim decisions by ALJs.

         Medicare contractors use Medicare law, HCFA regulations, HCFA rulings, and national
         coverage determinations as criteria in making claim decisions and in ruling on appeals.
         Where applicable, they also rely heavily on contractor manuals and local medical review
         policy because they are required to use these standards.

         The ALJs also use Medicare law, HCFA regulations, HCFA rulings, and national coverage
         determinations. However, they rarely use contractor manuals and local medical review
         policy because they are not bound by these standards, as are contractors. As a result, ALJ
         decisions typically reflect use of a much broader and less prescriptive criteria.

         The extent to which Medicare contractors and ALJs do not use the same criteria in ruling
         on claims could partly explain why ALJs overturn claim decisions made by Medicare
         contractors. A contractor can follow contractor requirements perfectly and come to a
         different conclusion than an ALJ who has followed his/her less prescriptive requirements
         perfectly. This commonly results when contractors base decisions on local medical review
         policy, which is not binding on ALJs. For example, contractors note cases they decided
         using the required local medical review policy which were overturned by ALJs. The ALJs
         were not required to apply the criteria used as the basis for the decision at the contractor
         level. In fact, the ALJ may not even have access to local medical review policy.

Medicare Administrative Appeals                    9                                     OEI-04-97-00160
         Further complicating the problem of inconsistent criteria, HCFA has issued no ALJ appeals
         regulations for conducting Medicare ALJ hearings. Therefore, ALJs must rely on SSA
         disability regulations in conducting ALJ hearings.

         The DHHS Departmental Appeals Board and the SSA Office of Hearings and Appeals
         agreed that the absence of specific criteria and guidance partly accounts for the inconsistent
         decisions by Medicare contractors and ALJs. Further, the individual ALJs who responded
         to our survey also said that specific criteria and guidance is needed to help them more
         consistently adjudicate cases.

Medicare’s ability to defend its appeal determinations is limited

         A number of factors increase the likelihood of appeals being reversed in favor of providers.
         First, providers are afforded the same appeal rights as beneficiaries, including the right to a
         non-adversarial hearing. Second, providers may present their case at hearings and be
         represented by attorneys and expert witnesses. Beyond the written record, Medicare is
         typically not represented at ALJ hearings. A third advantage is that providers are allowed
         to rebut testimony contained in the contractor’s written record.

         Yet another advantage for provider appellants is that they are allowed to use a number of
         sophisticated means, including statistical analysis and legal arguments to make their cases.
         These arguments are tailored for the case in question. One Part B cadre ALJ said,
         “providers are hiring the best law firms to represent their interest.” Another said,
         “providers and suppliers have the resources to present their cases with the assistance of
         sophisticated counsel and/or experts.” In fact, many ALJs who responded to our survey
         commented that provider representation is outstanding and one-sided.

         In contrast to the right of provider appellants to be represented at ALJ hearings, the
         appeals process typically allows no opportunity for HCFA and its contractors to rebut
         provider evidence and arguments. Although an ALJ may invite a Medicare contractor to a
         hearing, such invitations are uncommon. Further, when invited, the contractors typically
         send a nurse or a physician to represent them, not an attorney or other legal expert.
         Finally, the ALJ determines what role these invitees have in the hearing, which is usually
         clarification of some part of the Medicare record or program.

         While contractor representatives are often experts on the Medicare program frequently,
         they have little experience in a legal setting. Contractor staffs and ALJs told us such
         representatives may be overwhelmed when confronted and challenged by provider
         attorneys. Contractor representatives may also have their testimony countered by other
         expert witnesses on behalf of the provider. In any case, the appeals process does not allow
         Medicare to challenge the provider witnesses.




Medicare Administrative Appeals                    10                                      OEI-04-97-00160
Precedence from prior cases is not considered In ALJ hearings

         Although the appeals system is hierarchal, ALJ decisions do not set precedent. Further, the
         Departmental Appeals Board, the highest level of Medicare administrative appeals, does
         not have precedent setting authority.

         Several Medicare contractors expressed a view that the lack of precedent setting authority
         contributes to inconsistent ruling by ALJs. This variation undermines the Medicare appeals
         process and may contribute to other questionable practices. For example, one Durable
         Medical Equipment Carrier medical director advised us that some abusive providers engage
         in ALJ shopping. In other words, they actively look for an ALJ who renders favorable
         rulings on their particular type of claim.

         Representatives of the Departmental Appeals Board also said that ALJ rulings on similar
         Medicare cases may be very different. To illustrate, they described a situation where the
         Departmental Appeals Board reversed an ALJ decision in a narrow and definitive way.
         Shortly thereafter, on a similar case, another ALJ rendered essentially the same ruling that
         the Departmental Appeals Board had just reversed. In this example, the second ALJ ruling
         will stand unless it is also appealed to the Departmental Appeals Board and overturned.

         Departmental Appeals Board respondents to our inspection voiced strong interest in having
         precedent setting authority in order to clean-up inconsistencies and other problems in the
         appeal process.

Appeals process suffers from limited communication

         The lack of communication about Medicare issues within the ALJ corps promotes
         inconsistency. There are no conferences or national newsletters addressing Medicare for
         SSA judges. This may reflect the lower priority given to Medicare in the SSA ALJ corps.
         The exception to this is the Part B ALJ cadre where attention to Medicare receives a
         priority in the form of resources and communication among the judges. The cadre could be
         a useful model for improved functioning of the Medicare appeals process.

         Another useful model for improved communication is Transamerica of California. This
         contractor, by their own initiative, improved communication with local ALJs.




Medicare Administrative Appeals                   11                                     OEI-04-97-00160
                                  EFFECTIVE PRACTICE:
                                    Transamerica of California

         One HCFA contractor, Transamerica Occidental of California, improved the
         preparation of their case files by improving communication with local ALJs. This
         Part B carrier began a dialog with ALJs in November of 1995. The dialog was
         initiated by the carrier in an effort to better understand the basis for ALJ decisions.
         The meetings and workshops also provided the contractor an opportunity to learn the
         structure and content of appeals files which would be most instructive and helpful for ALJs
         who heard appeals of their decisions.

         As a result of the interaction and training, Transamerica developed a file preparation
         format. It was more specific than that required by HCFA. Each file sent to an
         ALJ contained a case summary which clearly profiled the cases, and noted the
         specific issue before the ALJ. To aid use of the files by ALJs, the contractor used
         plainly marked and tabbed exhibits. Both the SSA Office of Hearings and Appeals
         and HCFA commented that case file preparation by this Medicare contractor has
         shown great improvement.

         The interaction and training also included educating ALJs on the basis and rational
         for Medicare contractor decisions. Further, it educated ALJs on the type and content
         of contractor files and documents. The ALJ workshops are comprehensive, covering
         topics such as claims processing, carrier medical review process, local medical review
         policies, and sample case analysis. The chief hearing officer at Transamerica told us
         that the ALJs were, “thirsty for knowledge”.

         Since 1995, Transamerica has continued to conduct the educational workshops for
         contractor staffs, ALJs, and additionally, for Office of Hearings and Appeals attorneys
         and legal assistants.

         Transamerica reports that the enhanced understanding by ALJ and Medicare
         contractors, and the enhanced case file preparation has made a difference.
         Agreement between the Medicare contractor and ALJs on Medicare claims has
          increased markedly. To illustrate, at this Medicare contractor ALJ reversals on
         claim decisions decreased from 59 percent in FY 1994 to 31 percent in FY 1997.




Medicare Administrative Appeals                   12                                     OEI-04-97-00160
Non-adversarial nature of ALJ hearings
ALJs must present the Medicare case at hearings

         The ALJs must serve as fact finders and neutral decision-makers because Medicare is not a
         party to ALJ hearings. The contractor can neither present their case nor rebut the
         provider’s case. Because the contractor decision is represented only by a written record,
         the ALJs, in effect, are required to present Medicare’s case from that record. The ALJ is
         also required to rebut the provider’s arguments, should he/she choose to do so. When
         experts are needed to interpret the written record, it falls to the ALJ to locate such experts,
         or to depend on whatever experts the provider presents. After the excessive burdens
         imposed by the steps listed above, the ALJs remain faced with their primary task, which is
         to decide the case.

Parties in the appeals process agree that non-adversarial hearings are a problem

         Several ALJs said that Medicare should be allowed representation, and should be a party to
         ALJ hearings. In fact, all Part B cadre ALJs responding to the survey said that having
         Medicare represented at hearings would help them adjudicate cases. The judges said that
         the non-adversarial hearings place them in the difficult position of presenting Medicare’s
         case, and place Medicare at a disadvantage. Comments from ALJs include the following.

         •	        “Medicare cases do not fit anymore into the non-adversary model because the
                   issues are often extremely complex and it places an undue burden on the ALJ to
                   assume the role of advocate and adjudicator in the same case.”

         C	        “Without question, the contractor or HCFA should be a party to the proceedings
                   and allowed representation. There are millions [of dollars] at stake and the record
                   should be balanced before a decision is made. Medicare should be actively present
                   in selected cases.”

         C	        “Government is at a distinct disadvantage as evidence of record becomes very one
                   sided.”

         Contractors also want a more balanced ALJ hearing process. Eighty-five percent of HCFA
         contractors reported that the ALJ hearing process would benefit from contractor
         participation at ALJ hearings.

         Finally, representatives of DHHS’s Departmental Appeals Board and SSA’s Office of
         Hearings and Appeals also consider the non-adversarial hearings to be weighted in favor of
         providers. They noted the increasing complexity of cases, particularly in Part B, as a cause
         for re-structuring the non-adversarial nature of hearings for providers.




Medicare Administrative Appeals                     13                                     OEI-04-97-00160
Minimal experience and training of Administrative Law
Judges

ALJs primarily adjudicate Social Security cases

         Medicare cases comprise a small percentage of the SSA ALJ corps’ time. The ALJ corps
         spends about 8 percent of its work time hearing Medicare cases. To illustrate, during
         1996, SSA ALJs adjudicated 365,284 SSA cases and 28,515 Part A and Part B Medicare
         cases.

         Accordingly, ALJs have limited experience with the Medicare program — its policies,
         rules, and claims. The inexperience of ALJs was clearly reflected by their response to our
         survey. Of the general ALJ corps, only 43 percent of the ALJs responded to our survey.
         Further, of those that did respond, their responses were brief, sketchy, and generally
         incomplete.

ALJs focus on adjudicating SSA disability cases

         The ALJ corps was established to hear SSA cases, and its growth has been principally due
         to the large number of SSA disability appeals. The ALJs frequently receive congressional
         pressure to reduce the backlog of disability appeals. As a result, several ALJs responded to
         our survey by reporting that they were under pressure to keep up with their Social Security
         disability caseload. Medicare cases are a secondary concern. One ALJ summed up the
         situation by simply stating “Medicare is not a priority.”

         The lower priority of Medicare cases was further illustrated by SSA’s Office of Hearings
         and Appeals response to our efforts to obtain information from individual ALJs. Overall,
         the Office of Hearings and Appeals was very cooperative and helpful in encouraging its
         ALJ corps to respond to our Medicare survey. Even so, its assistance reflected that the
         Office of Hearing and Appeal’s priority was SSA cases. To illustrate, because of concern
         about the heavy year-end SSA case load, the Office of Hearings and Appeals delayed
         sending a notice to its ALJ corps encouraging them to complete our survey questionnaire.

ALJs are inadequately trained and equipped for adjudicating Medicare cases

         Many of the ALJs and Medicare contractors we surveyed agreed that one of the most
         serious problems with the Medicare administrative appeals system is the unfamiliarity with
         Medicare by most of the SSA ALJ corps. The ALJs receive neither extensive formal nor
         informal training on Medicare.

         Many judges contend that they lack sufficient training on Medicare. In fact, most judges
         receive only 1 or 2 days of formal training. Given the complexity of the Medicare program,
         this amount of training seems grossly inadequate.


Medicare Administrative Appeals                   14                                    OEI-04-97-00160
         The ALJs point out that on-the-job training is also inadequate. For most ALJs, the on-the-
         job training and experience is not extensive. According to SSA workload data, the average
         ALJ spends only about 8 percent of his or her time hearing Medicare cases. This equates
         to about 18 work days a year on average.

         Many of the ALJs told us that resources which could help them come to informed rulings
         are also lacking. They said, for example, they frequently do not have access to useful
         Medicare resources such as HCFA rulings, HCFA cd-rom, contractor manuals, and
         contractor publications. Some of the ALJs did tell us that they had access to some of these
         resources, but most did not have them available and were not using them. Further, where
         contractors have manuals to guide them though the appeals process, no comparable manual
         exists for ALJs.


                                  EFFECTIVE PRACTICE:
                                           Part B Cadre

         In part to enhance the Medicare expertise of the SSA ALJ corps, SSA’s Office of
         Hearings and Appeals has taken some positive and helpful actions. For example, in March,
         1998, SSA established a special cadre of ALJs to hear complex, high dollar Medicare Part
         B cases. A case must have at least $40,000 at issue and involve over 30 beneficiaries to be
         adjudicated by a cadre judge. The cadre, comprised of 28 ALJs, received additional
         training and laptop computers with Internet access to HCFA
         resources.

         Although not exclusively dedicated to Medicare hearings, the Part B cadre focuses
         more of its time on Medicare than does the general ALJ corps. This focus promotes
         development of Medicare expertise. The cadre judges demonstrated a high degree
         of knowledge and concern for the Medicare program. By contrast to the general ALJ
         corp of judges, the Part B cadre responded in high numbers to our Medicare survey
         (89 percent vs 43 percent). Further, their responses to our survey questions were much
         more informed and helpful than those from SSAs general ALJ corps.

         Further, the cadre judges have considerable interaction and communication about the
         cases they adjudicate. Cadre judges share information through e-mail correspondence
         and electronic bulletin boards specific to cadre judges. They exchange information
         about particular types of cases to guide other cadre judges hearing similar cases.




Medicare Administrative Appeals                  15                                     OEI-04-97-00160
                           RECOMMENDATIONS

Correct structural problems: The following recommendations will help correct structural
weaknesses in the administrative appeals process. Unless corrected, these weaknesses will
continue to adversly affect the administrative appeals process.

        <	        Separate the administrative appeals process for beneficiaries and providers.
                  This would allow beneficiary appeals to remain a non-adversarial appeal system
                  which many of our respondents deemed so important. It would also allow HCFA
                  to re-design an appeal system for providers and provide for a balanced hearing that
                  fairly represents all parties, including Medicare.

        <	
        <         Establish adversarial ALJ hearings for provider appeals. As recommended by
                  many of the ALJs we surveyed, adversarial hearings are needed to assure fair and
                  impartial hearings for all parties. The current non-adversarial process is one-sided
                  and heavily weighted in favor of the provider. Further, under the current system,
                  the ALJ is often burdened with both presenting Medicare’s case as well as trying to
                  make an impartial decision based on one sided evidence.

        <
        <	        Develop thorough, parallel training programs for Medicare contractors and
                  ALJs. HCFA can best determine what training is needed by each group. However,
                  the need for imparting consistent information to all parties in the appeals process is
                  clear. This is particularly true because the appeals process is a hierarchical process
                  in which common knowledge and information is important.

        <	
        <         Develop and require both Medicare contractors and ALJs to apply the same
                  standards. In much the same fashion as common training elements are important
                  to the process, so too, are common standards upon which to base decisions. Again,
                  because this process is hierarchical, the application of the same rules by all parties
                  for decision-making is very important.

        <	        Develop regulations for conducting Medicare ALJ appeals. Medicare claims
                  are increasingly complex and costly. As this trend continues, HCFA is likely to see
                  more and more inconsistent rulings on appeals because of the absence of specific
                  regulations to guide the appeals process.

        <
        <	        Establish a case precedent system for Departmental Appeals Board rulings.
                  By establishing precedence and means for communicating prior decisions, HCFA
                  could keep the appeals pipeline clear of many "mistaken" decisions. The system
                  could operate much like the court system currently operates. We believe the



Medicare Administrative Appeals                                                            OEI-04-97-00160
                                                    16
                  practice of case precedence becomes very important in hierarchical hearings
                  process.

        <	        Create formal communication and information networks that span the entire
                  appeals environment. Enhancing the knowledge of all parties in the appeal
                  process should help assure consistency in appeal rulings.

        Establish a dedicated ALJ corps: Considering the increasing importance and cost of
        Medicare cases, it is time to consider more effective and cost efficient ways to allow
        beneficiaries and providers to appeal Medicare decisions. We believe that the best way to
        improve the appeal function is to create a dedicated corps of ALJs who exclusively
        adjudicate Medicare. We suggest three organizational options for this corps.

                  1. Establish an ALJ corps in HHS.

                  <	        It could be in the Office of the Secretary and handle all Departmental
                            Administrative Law Judge hearings.

                  <	        It could be free standing within the Department, and handle all
                            Departmental Administrative Law Judge hearings.

                  <	        It could be in HCFA and handle exclusively Medicare and Medicaid
                            Administrative Law Judge hearings.

                  2. Create a dedicated corps in SSA, where some superstructure already exists. This
                  corps would address only Medicare cases.

                  3. If HHS does not establish its own dedicated corps and does not negotiate for
                  one in SSA, it should examine expansion of the current Part B cadre to handle all
                  Medicare appeals. While this would be an improvement, the current Part B cadre
                  judges in SSA are not dedicated to Medicare. Therefore, Medicare cannot be
                  assured the priority that would be available under a dedicated ALJ corps.

        Regardless of organizational location, the structural changes discussed above should be
        corrected. In so doing, care must be taken to maintain the independence of the appeals
        process which has been evident in the Social Security ALJ corps, and at the same time
        make needed improvements.




Medicare Administrative Appeals                                                               OEI-04-97-00160
                                                      17
                            AGENCY COMMENTS

        HCFA concurred with our recommendations. Their comments are in Appendix A.




Medicare Administrative Appeals                                                OEI-04-97-00160
                                            18

APPENDIX A
